ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013

Public: (213) 269-6000
Telephone: (213) 269-6207
Facsimile: (916) 731-2122
E-Mail: David.Glassman@doj.ca.gov

May 4, 2021
Via Electronic Filing System
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
RE:

Richard Allen Benson v. Kevin Chappell, Warden
Case No. 20-7813
Request for Extension of Time to File Brief in Opposition to Petition for Writ of
Certiorari

Dear Mr. Harris:
I represent the respondent, Kevin Chappell, Warden, in the above-entitled case. The
petition for a writ of certiorari was filed on April 16, 2021. The brief in opposition to the
petition is currently due on May 21, 2021. Pursuant to Rule 30.4, I respectfully request that the
time for filing that brief be extended by thirty-one days, to Monday, June 21, 2021.
An extension of time would better enable preparation of a response that respondent
believes would be most helpful to the Court. Prior to submitting this request, I contacted
attorney John R. Grele, counsel for petitioner. Mr. Grele does not object to this request.
Accordingly, I request that the due date for the brief in opposition to the petition for a
writ of certiorari be extended to June 21, 2021.
Sincerely,
/s/ David F. Glassman
DAVID F. GLASSMAN
Deputy Attorney General
For
cc:

John R. Grele
Marcia A. Morrissey
(Attorneys for Petitioner)

ROB BONTA
Attorney General

